No. 20· _ __
IN THE

SUPREME COURT

OF THE UNITED STATES

OCTOBER TERM, 2020

LANCE LAMONT LAVERT,

Petitioner,
- V.

UNITED STATES OF AMERICA,

Respondent.

PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.
Petitioner was appointed counsel during proceedings in the Southern District
of California and while Petitioner's case was pending before the Ninth Circuit under
the Criminal Justice Act, 18 U.S.C. Section 3006A.
Dated:

fu/z)/1,I

David J. Zugman
Burcham & Zugman
402 West Brnadway, Suite 1130
San Diego, CA 92101
Tel: (619) 699-5931
Email: dzugmanC@grnail.com
Attorney for Lavert

